2:17-cv-0214i-CSB-EIL # 135

t

Page 1 of 21

E-FILED

Monday, 08 July, 2019 71:53:11 AM
Clerk, U.S. District Court, iLCD

»
;

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
URBANA DIVISION
GARY HATTER,
Plaintiff,
v.

Case No. 17-CV-2141
)
)

GLORIA WILLIAMS, et al.,
Defendants.

ORDER
On September 7, 2018, pro se Plaintiff, Gary Hatter, filed his Third Amended
Complaint (#85); Defendants are the Housing Authority of Champaign County
("HACC") and three of its employees: Edward Bland, Medra Seals, and Gloria
Williams. On December 13, 2018, all four Defendants filed Motions for Summary
Judgment (#102, #103, #104, #105). Plaintiff filed Responses (#121, #122, #123, #124) on
March 6, 2019, and Defendants filed Replies (#125, #126, #127, #128) on March 19, 2019.
For the reasons that follow, all four Motions for Summary Judgment are granted.
FACTS
Plaintiff's Response fails to comply with Local Rule 7.1(D)(2)(b)(5), in that many
of his "facts" are either legal arguments, unsupported by citations to Plaintiff's exhibits,
or unsupported by any admissible evidence. Even pro se parties must comply with the
court's local rules. Garcia v. Illinois State Police, 545 E. Supp. 2d 823, 836 (C.D. Ill. 2015).

:K fi

2:17 -cv-G2141-CSB-E i L # 135

1

Page 2 of 21

As a consequence of Plaintiffs lack of compliance with the applicable Local Rules, the
following facts are taken largely from Defendants' Statements of Undisputed Material
Facts. Facts are also taken from the exhibits submitted by the parties.
HACC is a housing authority created under 310 Ill. Comp. Stat. 10/3. One of its
functions is administering Flousing Choice Vouchers. In 1993, Plaintiff obtained a
Housing Choice Voucher administered by HACC. He still had a Voucher in 2015.
In 2015, HACC made efforts to ensure the unit size for each tenant was consistent
with the needs of that tenant, per a directive from the Department of Housing and
Urban Development ("HUD") to "rightsize" units.
In March of 2015, Plaintiff met with a HACC employee, Grace Thomas, to
discuss "rightsizing." Thomas sent Plaintiff a form to use to request a reasonable
accommodation during his recertification and rightsizing process.
On May 12, 2015, a different HACC employee, Medra Seals, sent Plaintiff a
routine notification to inform him of his scheduled recertification for the voucher
program on May 26, 2015. She also notified Plaintiff that his two-bedroom unit was
larger than his one-bedroom voucher size, so he would be required to move, an issue
that would be discussed at the May 26, 2015 recertification.
On May 22, 2015, Plaintiff submitted a request for a reasonable accommodation,
including verification from his physician referencing Plaintiffs need for additional
space to store physical therapy equipment.

2

2:17-cv-02141-CSB-EJL # 135

Page 3 of 21

Plaintiff did not attend the May 26, 2015 recertification meeting. On May 26,

1
$
f

2015, Seals sent notice to Plaintiff of a rescheduled recertification meeting for June 22,
2015. Plaintiff attended the June 22, 2015 meeting. At the meeting, Plaintiff submitted a
verification of income and assets. Plaintiff claims in his Response that he signed a blank
form and that someone at HACC filled it out. However, in his deposition he stated that
his income and asset verification forms for 2010, 2011, 2013, and 2015 were accurate,
and he acknowledged his signature on them. He does not claim the information on the
form was inconsistent with information he provided.
Also on June 22, 2015, Plaintiff signed an Authorization for Release of
Information. The Authorization permitted HACC to verify Plaintiff s application
information, including "Credit... Activity" and "Income and Assets."
On June 23, 2015, the Deputy Director of HACC, Gloria Williams, sought
Plaintiffs credit report. HACC had received information from an anonymous source
that it appeared that Plaintiff was not living in the apartment for which he had the
voucher. The credit report revealed a mortgage with CitiFinancial originating on April
19, 2004. Plaintiff submitted verification of income and asset information in 2010, 2011,
2013, and 2015, but never reported owning any real estate.
On June 24, 2015, Williams requested information from CitiFinancial. She
received a copy of the mortgage for real property located at 701 Crockett, Covington,
Indiana ("Covington house"), dated April 19, 2004 and recorded April 22, 2004 by the
Fountain County Recorder.

2:17-cv-02141-C3B-EIL # 135

Page 4 of 21

On June 29, 2015, at Williams' direction, Seals notified Plaintiff that his
reasonable accommodation request was approved. Seals also sent a Housing Assistance
Payment Contract and Lease Amendment to Plaintiff.
Williams concluded that Plaintiff s Voucher should be terminated for fraud after
reviewing and researching his recertification documents, including viewing the
property at issue. On July 13, 2015, at Williams' direction, Seals sent Plaintiff
notification that HACC intended to terminate his subsidy assistance due to program
fraud and abuse, citing actions that constitute false statements, omissions, or
concealment of substantive facts made with intent to deceive or mislead.
On July 22, 2015, Plaintiff requested a review of the proposed termination of his
voucher. An informal hearing occurred on August 3, 2015. Executive Director Edward
Bland acted as tire informal hearing officer, and Plaintiff, Seals, and Williams were also
present.
At the August 3, 2015 hearing, Plaintiff presented Bland a letter that he wrote. In
the letter, Plaintiff states that he took out a loan for the house in Covington, Indiana on
April 19, 2004 only to help his son, and that "[i]n no way" is he "associated with the
ownership of this house." The letter is signed by Plaintiff (and no one else) and dated
April 19, 2004. Plaintiff claims he gave this letter to a HACC employee in 2004. He
remembered nothing about that employee beyond that she was female, and admits that
he said nothing about the matter to any other person he subsequently dealt with at
HACC. The letter was not in the HACC files in 2015. HACC disputes that the
4

2:I7-cv-G214i-CSB-EIL # 135

Page 5 of 21

document existed in 2004, contending that no HACC personnel saw the letter prior to
July 29, 2015. Plaintiff states that on July 29, 2015, he took a copy of it to HACC and it
was stamped and placed into his file. Plaintiff contends HACC concealed or destroyed
a prior copy of the letter, but he has no evidence to support that contention.
On August 5, 2015, Bland sent correspondence to Plaintiff, including an order
upholding the decision to terminate his voucher. On August 18, 2015, HACC received
from Plaintiff a request for a formal hearing.
On August 24, 2015, HACC sent correspondence to Plaintiff informing him that
he would be notified by mail of the date and time of a formal hearing. Two days later,
Bland sent correspondence to Plaintiff informing him that HACC had been notified that
Plaintiff had initiated the process for filing a fair housing complaint, so the formal
hearing would be delayed until the conclusion of an investigation by Amanda Motyka,
Equal Opportunity Specialist for HUD.
According to Defendants, in late September, Williams contacted HUD to check
on the status of Plaintiff s complaint. She was advised that Plaintiff did not timely
complete the filing of a fair housing complaint and that HACC should proceed with
scheduling a formal hearing. Based on Williams' communications with HUD, a formal
hearing was scheduled.

'Plaintiff stated in his deposition that he first had a phone conversation with
HUD in August of 2015, that right after that conversation, HUD sent him a form to fill
out, and that he put down in writing "what was done to [him]" and sent it to HUD. He
stated that he sent the information in late November 2015, but later said he sent it on
September 14, 2015. He was still filling out a report with a HUD employee as of
5

2:17-cv-02141-CSE-EIL # 135

Page 5 of 21

On September 30, 2015, Bland sent correspondence to Plaintiff notifying him of
the formal hearing scheduled for October 14, 2015. The formal hearing occurred on
October 14, 2015 with hearing officer Brent Newman, Williams and Seals present.
Plaintiff was not there, because he was in Texas getting medical treatment. He claims
that Williams scheduled the hearing knowing he was going to be out of town.
On October 27, 2015, Newman sent correspondence to Plaintiff including an
order upholding the termination of Plaintiffs Voucher. The next day, at Williams'
direction, Seals sent correspondence to Plaintiff, including a Termination of Housing
Assistance notice, informing Plaintiff that the termination would be effective November
1, 2015.
Documents from the Fountain County, Indiana Recorder concerning the
Covington house reflect the following. A document recorded on August 8,1997
indicated that on August 6,1997, Plaintiff and Shelley D. Applegate purchased under
contract, as tenants in common, 701 Crockett, Covington, Indiana, from Bonnie
Applegate. A Warranty Deed recorded on January 16, 2004 conveyed title to the
property from Bonnie Applegate to Plaintiff and Shelle)/ Applegate as tenants in
common. The Warranty Deed was executed on August 6,1997. A Quitclaim Deed
dated June 24,1998 and recorded January 29, 2004 conveyed all interest in the property

November 24, 2015. On December 2, 2015, HUD sent a letter notifying HACC of the
completed filing of a Housing Discrimination Complaint.
6

2:17-cv-02141-CSB-EIL # 135

Page 7 of 21

from Shelle}/ D. Applegate to Plaintiff. A Quitclaim Deed executed and recorded on
August 20, 2015 purported to convey Plaintiff's interest in the Indiana property to Gary
L. Hatter, Jr.
ANALYSIS
I. Summary Tudgment Standard
Summary judgment is appropriate "if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of
law." Fed. R. Civ. P. 56(a); see also Celotex Corp. v. Catrett, 477 U.S. 317,322-23 (1986).
In ruling on a motion for summary judgment, a district court "has one task and one task
only: to decide, based on the evidence of record, whether there is any material dispute
of fact that requires a trial." Waldridge v. Am. Hoechst'Corp., 24 F.3d 918, 920 (7th Cir.
1994). "[T]he district court's function is not to weigh the evidence and determine the
truth of the matter, but to determine whether there is a genuine issue for trial." Winters
v. Fru-Con, Inc., 498 F.3d 734, 744 (7th Cir. 2007). In making this determination, the
court must construe the evidence in the light most favorable to the nonmoving party
and draw all reasonable inferences in favor of that party. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 255 (1986); Singer v. Raemisch, 593 F.3d 529, 533 (7th Cir. 2010). However, a
court's favor toward the nonmoving party does not extend to drawing "[ijnferences that
are supported by only speculation or conjecture." Singer, 593 F.3d at 533, quoting
Fischer v. Avanade, Inc., 519 F.3d 393, 401 (7th Cir. 2008).

7

2:17-cv-02141-CSB-EIL # 135

Page 8 of 21

"The mere existence of an alleged factual dispute will not defeat a summary
judgment motion; instead; the nonmovant must present definite, competent evidence in
rebuttal." Butts v. Aurora Health Care, Inc., 387 F.3d 921, 924 (7th Cir. 2004). Summary
judgment "is the 'put up or shut up' moment in a lawsuit, when a party must show
what evidence it has that would convince a trier of fact to accept its version of events."
Koszola v. Bd. ofEduc. of City of Chicago, 385 F.3d 1104,1111 (7th Cir. 2004), quoting
Johnson v. Cambridge Indus., Inc., 325 F.3d 892, 901 (7th Cir. 2003). Specifically, to survive
summary judgment, "the nonmoving party must make a sufficient showing of evidence
for each essential element of its case on which it bears the burden at trial." Kampmier v.
Emeritus Corp., 472 F.3d 930, 936 (7th Cir. 2007), citing Celotex Corp., 477 U.S. at 322-23.
II. Defendant's Motion for Summary judgment
Plaintiffs Third Amended Complaint can be viewed as making claims for racial
and disability discrimination, retaliation, and a due process violation. Defendants
framed the issues in terms of those categories, and the argument section of Plaintiffs
Response likewise addresses each of those types of claims in its own subsection.
A. Racial Discrimination
Employment discrimination case law can be adapted to fit a variety of intentional
discrimination claims. See Grubbs v. Housing Authority of Joliet, 1997 WL 281297, at *16
(N.D. Ill. May 20,1997) (applying legal standards from employment discrimination case
law to a plaintiff alleging that a housing authority discriminated against him, because of
his disability, when he was renting an apartment). The legal standard for determining
8

2:17-cv-02141-CSB-EIL # 135

Page 9 of 21

whether an employment discrimination claim should survive summary judgment is
"simply whether the evidence would permit a reasonable factfinder to conclude that the
plaintiff's race, ethnicity, sex, religion, or other proscribed factor caused the discharge
or other adverse employment action." Ortiz v. Werner Enters., Inc., 834 F.3d 760, 765 (7th
Cir. 2016). Adapting the Ortiz standard, the question here is whether the evidence
would permit a reasonable factfinder to conclude that Plaintiff's race caused Defendants
to take an adverse action against him when administering the voucher program.
In his statement of additional facts, Plaintiff did not include any facts concerning
his race or how his race had anything to do with his termination from the voucher
program. His argument section does not attempt to tie his race to any of Defendants'
actions, either. Instead, his argument in the "Racial Discrimination" section of his
Response argues that HACC and Gloria Williams were motivated by a desire to force
him to move due to downsizing and budget cuts, so they improperly denied him a
reasonable accommodation despite his disability. As Plaintiff argues only a disability
discrimination claim in the "Racial Discrimination" section of his analysis, he provides
no basis for the court to conclude that his race caused an adverse action.
"It is not the Court's responsibility to find arguments, facts, and supporting case
law for the parties." Sanders v. JGWPT Holdings, Inc., 2016 WL 4009941, at *11 (N.D. Ill.
July 26, 2016). Plaintiff does not argue how any facts show racial discrimination. He
did not put forth any evidence or argument that would permit a reasonable factfinder
to conclude that his race caused Defendants to take an adverse action against him. In
9

2:17-cv-02l4I~CSB-E(L # 135

Page 10 of 21

the absence of any evidence of racial discrimination or even any argument concerning
racial discrimination, all of Defendants' Motions for Summary Judgment are granted as
to Plaintiff's racial discrimination claims.
B. Disability Discrimination
Defendant argues that he was discriminated against on the basis of his disability
when he was denied a reasonable accommodation, terminated from the voucher
program, and not reinstated in the program.
Title II of the ADA and the FHAA prohibit housing discrimination because of a
person s disability or handicap." Dadian v. Village of Wilmette, 269 F.3d 831, 837 (7th Cir
2001).

A violation of either act can be established by showing that the plaintiff was a

qualified individual with a disability, and the defendant either failed to reasonably
accommodate the plaintiff's disability or intentionally discriminated against the plaintiff
because of her disability." Id. at 838.
Plaintiff was not denied a reasonable accommodation. He was notified in a June
29, 2015 letter that his reasonable accommodation request was approved. So, adapting
the Ortiz standard to the intentional discrimination issue here, the question is whether
the evidence would permit a reasonable factfinder to conclude that Plaintiff's disability
caused Defendants to terminate him from the voucher program. See Ortiz, 834 F.3d at
765.

10

2:17-cv-0214i-CSB-ESL # 135

Page 11 of 21

The McDonnell Douglas burden-shifting analysis remains useful even after Ortiz.
See Ferrill v. Oak-Creek Franklin Joint School Dist., 860 F.3d 494, 499-500 (7th Cir. 2017).
Under McDonnell Douglas, as adapted for the circumstances of this case, "a plaintiff can
demonstrate a prima facie case of intentional handicap discrimination in the terms and
conditions of his apartment rental by showing that he was a member of a protected
class, that he was similarly situated to members of the unprotected class, and that he
was treated differently than members of the unprotected class." Grubbs, 1997 WL
281297, at *16.
If a plaintiff establishes a prima facie case of discrimination, the burden shifts to
the defendant to produce a legitimate, nondiscriminatory reason for tire defendant's
action. McDonnell Douglas, 411 U.S. at 802; Ferrill, 860 F.3d at 500. If the defendant does
so, the burden shifts back to the plaintiff to rebut that explanation by presenting
evidence sufficient to enable a trier of fact to find that the employer's proffered
explanation is pretextual. Ferrill, 860 F.3d at 500. Pretextual "means a dishonest
explanation, a lie rather than an oddity or an error." Kulumani v. Blue Cross Blue Shield
Ass'n, 224 F.3d 681, 685 (7th Cir. 2000). It is only necessary to reach the issue of pretext
if a plaintiff establishes a prima facie case. Brummett v. Lee Enterprises, Inc., 284 F.3d 742,
744 (7th Cir. 2002).
Plaintiff insists that the Covington house had nothing to do with the termination
of his rental assistance, and that he was terminated from the voucher program because
of his disability. But that is not what the evidence shows. The evidence shows that
11

F

2:l/-cv-02141-CSB-EIL #135

Page 12 of 21

Plaintiff was not eligible for rental assistance because he omitted material infor
from his 2015 recertification documentation in that he failed to d

mation

isclose his ownership of

the Covington house.
At the time of Plaintiff's 2015 recertification, 24 CFR § 982.551(b) required him to
"supply any information requested by the PHA or HUD for use in a regularly
scheduled reexamination or interim reexa

mination of family income and composition in

accordance with HUD requirements/' and it provided that "[a]ny information supplied
■ ■ • must be true and complete." 24 CFR § 982.551(b). And, 24 CFR § 982.551(k)
prohibited fraud in connection with the rental

assistance programs. Another

subsection, 24 C.F.R. § 982.552(c)(l)(i), provided that the program administrator "
at any time deny program assistance for an applicant, or terminate pr
for a participant" if the participant "violates

may

ogram assistance

any family obligations under the program

(see § 982.551)."
A housing authority must obtain, from program participants, information as to
the value of the participant's assets in excess of $5,000.

24 C.F.R. g 982.516(a)(2)(h).

That value is used m calculating the participant's income, which in turn determines
eligibility for and the amount of a voucher.

24 C.F.R. § 5.609(b)(3); 24 C.F.R. § 982.4(a);

24 C.F.R. § 5.628(a).
Williams discovered that Plaintiff had

a mortgage with CitiFinancial, originating

on April 19, 2004, for the Covington house. He had not disclosed that horn

12

e on his

2:17-cv-02141-CSB-EIL # 135

Page 13 of 21

recertification papers, even though they asked about whether Plaintiff owned any real
estate. HACC believed that the real estate, with a value of over $5,000, constituted a
material omission by Plaintiff, so they terminated his housing voucher.
In the context of the adapted McDonnell Douglas test, "a plaintiff can demonstrate
a prima facie case of intentional handicap discrimination in the terms and conditions of
his apartment rental by showing that he was a member of a protected class, that he was
similarly situated to members of the unprotected class, and that he was treated
differently than members of the unprotected class." Grubbs, 1997 WL 281297, at *16.
Plaintiff has failed to identify any similarly situated, non-disabled individuals who
were treated differently than he was. He has not identified anyone who was not
disabled, omitted material information in their recertification process, and was not
terminated from the voucher program. This means that he has failed to demonstrate a
prima facie case of discrimination, and his disability discrimination claim cannot
succeed.
Plaintiff argues that Williams never should have run his credit report in the first
place. However, HACC had received an anonymous tip that Plaintiff was not living in
the apartment for which he had a voucher. The credibility of the tip is bolstered by the
fact that Plaintiff admits that he spent weeks at a time in Texas, so someone could have
noticed he was not at his apartment for some time. Most importantly, Plaintiff
authorized HACC to obtain his credit report. Williams properly obtained the credit
report pursuant to that authorization form.
13

2:17-cv-02141-CSB-EIL # 135

Page 14 of 21

Plaintiff also argues that the document he gave to HACC purporting to be from
2004 shows that the Covington house should not have been a problem. The court
disagrees. HACC could quite reasonably have questioned the origins of the document
because it was not in their files, it was not stamped in any way, and it was not signed by
anyone other than Plaintiff. Even assuming the document existed in 2004, it did not
authorize Plaintiff to fail to disclose the property on his recertification form. Plaintiff
claims he could not disclose the house because he did not own it, but he clearly did
have an interest in it. While Plaintiff may have taken it out to help his son, the
mortgage was solely in Plaintiff s name. The deed information confirms that the house
was owned by Plaintiff and Plaintiff alone at the time of the recertification hearing.
When Plaintiff failed to disclose the fact that he owned a home on his recertification
form, HACC properly terminated his voucher for that material omission.
Plaintiffs attempt to justify his omission by claiming that some person told him a
decade ago that he could claim not to own the house does not warrant a trial. The
recertification form is not vague. It asked: "Do you . . . own or have an interest in any
real estate[?]" Regardless of Plaintiffs claimed motives in purchasing the house,
Plaintiff clearly had "an interest" in some real estate. He had a mortgage for it in his
name. He was obligated to provide truthful and complete information to HACC, but he
did not do so. HACC reasonably (and correctly) believed Plaintiff owned a house that
he failed to disclose, which gave them every reason to terminate his voucher.

14

2:17-cV'02i41-C5B-EIL # 135

Page 15- of 21

C. Retaliation
Plaintiffs Response argues that he was retaliated against in violation of Section
818 of the Fair Housing Act. That Section provides: "It shall be unlawful to coerce,
intimidate, threaten, or interfere with any person in the exercise or enjoyment of, or on
account of his having exercised or enjoyed, or on account of his having aided or
encouraged any other person in the exercise or enjoyment of, any right granted or
protected by section 803, 804, 805, or 806 of this title." 42 U.S.C. § 3617.
"To prevail on his claims under section 3617, plaintiff must show that (1) he is a
protected individual under the FHAA, (2) he was engaged in the exercise or enjoyment
of his fair housing rights, or was aiding or encouraging others in the exercise of their
rights, (3) defendants were motivated in part by an intent to discriminate, or their
conduct produced a disparate impact, and (4) defendants coerced, threatened,
intimidated, or interfered with plaintiff on account of his protected activity under the
FHAA." Grubbs v. Housing Authority ofJoliet, 1997 WL 281297, at *25 (N.D. Ill. May 20,
1997).
Plaintiff argues that Williams sent an inspector with a camera in retaliation for
him wanting to stay in his apartment. However, his facts section includes no
supported, admissible evidence concerning an inspector. Again, " [i]t is not the Court's
responsibility to find arguments, facts, and supporting case law for the parties." Sanders,
2016 WL 4009941, at *11. Having failed to establish any facts concerning an inspector,
there is nothing for the court to consider regarding an inspector. Plaintiff also argues
15

2:17-cv-02I41-CSE-EIL # 135

Page 16 of 21

that Williams retaliated against him for refusing to let the inspector into his apartment,
again citing statements and actions that were not included in his statement of facts with
specific citations to admissible supporting evidence.
Plaintiff says Williams "retaliated once again by downloading my credit report to
try to find a reason to terminate me." But, Williams was authorized to download the
credit report by a form Plaintiff filled out on June 22, 2015, and she had reason to do so
because she had heard Plaintiff may not be living in his apartment. It is also not clear
that Plaintiff is alleging the credit report was obtained in retaliation for Plaintiff having
exercised a right granted to him by specified sections of the Fair Housing Act, as
required as an element of a retaliation claim under 42 U.S.C. § 3617.
Plaintiff stated he reported Williams to "the board" on June 25, 2015, reporting
"discrimination, threatening to move and the statement about this program I was on
wasn't for single white guys like me, and all the rule violations." He states that he
reported issues to Towanda Macon on August 7, 2015, and he had a fight with Williams
about getting copies of documents. Again, these actions and statements were not
included in any statement of facts with specific citations to admissible supporting
evidence.
Plaintiff claims that HACC retaliated against him by scheduling a hearing when
he was going to be in Texas. As above, it is also not clear how Plaintiff links this alleged
retaliation to his having exercised a right granted to him by specified sections of the Fair
Housing Act. See 42 U.S.C. § 3617. Further, Williams only scheduled the hearing after
16

2:17'CV-02141-CSB-EiL # 125

Page 17 of 21

speaking with HUD, where someone told her to proceed with scheduling a formal
hearing. While Plaintiff had been in communication with HUD, he was still filling out a
report with a HUD employee as of November 24, 2015 and HUD did not send a letter
notifying HACC of the completed filing of a Housing Discrimination Complaint until
December 2, 2015. There is no admissible evidence to controvert Williams' reason for
scheduling the hearing. Additionally, Plaintiff claims he could not have known about
the hearing, but he stated in his deposition that he had his mail forwarded to Texas in
the past.
Lastly, if Plaintiff is arguing he was terminated from the program in retaliation
for some protected activity, he does not have the evidence to support his claim. As
discussed above, the evidence shows he was terminated because he owned a house yet
he reported in his recertification form that he did not have any interest in any real
estate.
D. Due Process
Defendants' Motions for Summary Judgment also suggest Plaintiff may be
claiming procedural due process violations under 42 U.S.C. § 1983. Plaintiffs Third
Amended Complaint could possibly be read as alleging that rogue actions by HACC
employees denied Plaintiff of procedural due process.
"This species of due-process claim is a challenge to the 'random and
unauthorized' actions of the state officials in question, i.e., to their unforeseeable
misconduct in failing to follow the requirements of existing law." Michalouricz v. Village
17

2;17~cv-02141-CSB-EIL # 135

Page 18 of 21

of Bedford Park, 528 F.3d 530, 535 (7th Cir. 2008). "Because such misconduct is inherently
unpredictable, the state's obligation under the Due Process Clause is to provide
sufficient remedies after its occurrence, rather than to prevent it from happening." Id.
"Where state law remedies exist, a plaintiff must either avail herself of the remedies
guaranteed by state law or demonstrate that the available remedies are inadequate."
Doherty v. City of Chicago, 75 F.3d 318, 323 (7th Cir. 1996).
Plaintiffs "claim can stand only if Illinois law provides insufficient remedies for
the violation he alleges." Michalozuicz, 528 F.3d at 535. Defendants argued that Illinois
Law provided sufficient remedies for any violation alleged by Plaintiff. Plaintiff does
not dispute that contention, stating in his Response: "I don't deny that these remedies
may have been available under Illinois law had I have known of these remedies." Nor
does Plaintiff argue those remedies were inadequate. Because Plaintiff agrees that
remedies were available under Illinois law, he does not dispute their adequacy, and he
did not avail himself of them, his procedural due process claim must fail. See Dolzerty,
75 F.3d 318, 323.
Plaintiff argues that he did not have to pursue available state remedies because
he instead pursued this civil rights lawsuit, and the court had jurisdiction because of his
federal claims. It is true that the court has jurisdiction in this case. However, as
concerns his procedural due process claim, Plaintiff's failure to avail himself of the state
law remedies does mean that his due process claim is without merit. See Dolzerty, 75

18

2:17-cv-Q2I41-CSB-E!L # 135

Page 19 of 21

F.3d at 323 ("Where state law remedies exist, a plaintiff must either avail herself of the
remedies guaranteed by state law or demonstrate that the available remedies are
inadequate.").
E. Additional Considerations
While the court has already concluded that all Defendants are entitled to
summary judgment on all of Plaintiffs claims, some Defendants are entitled to
summary judgment for additional reasons not yet discussed.
1. Defendant Medra Seals
On April 3, 2019, counsel for Defendants filed a Suggestion of Death of
Defendant Medra Seals.
Federal Rule of Civil Procedure 25(a)(1) sets forth the procedure that must be
followed when a party to a lawsuit dies:
If a party dies and the claim is not extinguished, the court may order
substitution of the proper party. A motion for substitution may be made
by any party or by the decedent's successor or representative. If the
motion is not made within 90 days after service of a statement noting the
death, the action by or against the decedent must be dismissed.
Here, 90 days have passed and no party has moved for a substitution. The action
against Defendant Seals must be dismissed under this Rule.

19

2:i/-cv-0214I-CSB-E!L #135

Page 20 of 21

2. Defendant HACC
Defendant HACC argues that it is not liable for

the actions of its employees.

Under Monell v. Department of Social Services, 436 U.S.
658, 694 (1978),
infltlT1 f,V“nt may not be
under § 1983 for an injury
mflicted solely by its employees or agents. Instead, it is when execution of
a government's policy or custom, whether made by its lawmakers or bT
those whose edicts or acts may fairly be said to represent official policy^
inflicts the injury that the government as an entit) '
P
is
responsible
under §
1983.
Plaintiff has not presented any evidence of a HACC policy

or custom that

violated his rights. Instead, he testified that HACC employees violated HACC's
policies and procedures. In the absence of any evidence that a
inflicted any injury, Plaintiff's claims

HACC policy or custom

agamst HACC fail for the additional reason that

HACC is not vicariously liable for the actions of its

employees. While the court has

concluded the employees did not commit any violations, HACC
even if they had, providing another

would not be liable

reason to grant summary judgment to HACC.

3. Defendants Seals, HACC, and Bland
Plaintiff testified at page 110 of his deposition that Willia
Defendant he believes discriminated against him because

ms is the only

of his race, and Williams is

the only Defendant he belileves discriminated against him because he is disabled. Thus,
Plaintiff's racial and disability discrimination claims do

not apply against Defendants

Seals, HACC, and Bland. Those claims cannot succeed against those Defenda

20

nts where

2:17-cv~G2141-C3B-EiL # 135

Page 21 of 21

Plaintiff himself conceded that he did not believe those Defendants discriminated
against him because of his race or disability, further supporting summary judgment on
those claims as to those Defendants.
IT IS THEREFORE ORDERED THAT:
(1) Defendants' Motions for Summary Judgment (#102, #103, #104, #105) are
GRANTED. Judgment is entered in favor of Defendants and against Plaintiff.
(2) This case is terminated.
ENTERED this 8th day of July, 2019.
s/COLIN S. BRUCE
U.S. DISTRICT JUDGE

i

i
i

f

21

Cas 3: iy-24b3

Document: t>u

FileanJT72B72UZl

Fag&s: 5

NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

V1

Mmhh plates Court of i\|jprals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted January 27, 2021’
Decided January 28, 2021
Before
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 19-2453

GARY HATTER,
Plaintiff-Appellant,
v.
GLORIA WILLIAMS, et al,
Defendants-Appellees.

Appeal from the United States District
Court for the Central District of Illinois.
No. 17-CV-2141
Colin S. Bruce,
Judge.
ORDER

After determining that Gary Hatter had misrepresented his financial assets, the
Housing Authority of Champaign County, Illinois, stopped his rental assistance. Hatter
then sued the agency and three of its employees,1 asserting that they discriminated and
retaliated against him based on his disability and race as well as deprived him of due
’ We have agreed to decide the case without oral argument because the briefs and
record adequately present the facts and legal arguments, and oral argument would not
significantly aid the court. Fed. R. App. P. 34(a)(2)(C).
1 Because no party moved for substitution after 90 days of counsel's suggestion
of death, defendant Medra Seals is no longer party to the suit. See Fed. R. Civ. P. 25(a)(1).
&

Case: 19-2453

Document: 50

Filed: 01/28/2021

Pages: 5

: l

No. 19-2453

Page 2

process. The district court entered summary judgment for the defendants. Because
Hatter marshaled no evidence that the alleged violations occurred, we affirm.
At the outset, we address Hatter's concern that the district court limited the
summary-judgment record to the defendants' evidence. Hatter's submissions, in which
he disputed the defendants' factual account with legal arguments but did not cite
admissible evidence (though he appended dozens of documents), did not comply with
the local rules. See CD. III. R. 7.1(D)(2)(b)(5). Although Hatter was pro se, the district
court strictly enforced its rules as it is entitled to do. See McCurry v. Kenco Logistics
Servs., LLC, 942 F.3d 783, 786-87 (7th Cir. 2019). We thus recount the facts as presented
by the defendants, still viewing them in the light most favorable to Hatter. Id. at 787.
Hatter, who lives alone and is disabled from a decades-old back injury, obtained
rental assistance under Section 8 of the Housing Act of 1937, 42 U.S.C. § 1437f, and
rented a two-bedroom unit from 1993 to 2015. In May 2015, the Housing Authority of
Champaign County told him that he had to move to a one-bedroom apartment to match
his one-person voucher. Hatter then requested a reasonable accommodation, asserting
that he needed the extra room for his physical-therapy equipment. The agency's
assistant director, Gloria Williams, waited to address this request until Hatter
completed the required annual recertification of his income.
At his meeting for recertification in late June, Hatter signed a form verifying, in
relevant part, that he "does not own or have any interest in real estate" and signed a
release authorizing the agency to verify his representations. Hatter alleges that Williams
forced him to sign a blank income-verification form that she later filled out with
inaccurate information. But the information matches the forms he submitted in 2010,
2011, and 2013, and he does not dispute the accuracy of that paperwork.
That week, Williams approved Hatter's request for an accommodation to remain
in his two-bedroom unit and recertified him with the program. Around the same time,
however, she requested Hatter's credit report based on .an anonymous tip that he was
not living in his subsidized apartment. The report exposed that Hatter had a mortgage
on a property in Indiana. Further investigation revealed that Hatter had acquired the
property in 1997 and obtained the mortgage in 2004. The agency then notified Hatter
that it intended to stop his subsidy for "fraud and abuse." He requested a hearing and
provided the agency with a letter from August 2004, in which he stated that he had
taken out the mortgage for his son and that he was "[i]n no way" associated with the
property's ownership. He insisted that he had given the letter to "a female employee" of
the agency in 2005, but the housing authority did not have a copy of the letter in his file.
*

Case: 19-2453

Filed: 01/28/2021

Document: 50
». Tvilt

w'--

IK

». . «i

>-f

i ■

■J • '

Pages: 5

r't

i

Cr

r

Page 3

No. 19-2453

i ugv »

,
, At the informal hearing on August 3, 2015, Hatter maintained that he did not
* .*fkr. «v* /»
v»* t i1 *.,4i ■»
>>vi/u»‘ *•
own the Indiana property and that a caseworker from the agency had approved the
1
‘ Ji*-< I
1 r H * J
y, ft «- .
l |‘lI UC, • M
1
arrangement based on his letter. Edward Bland, the executive director, deeded to ...
«.**,»i u
u>4 ►/ tiity iv. vi'M u i1 i »»tj .
t
s uiu,k' *n
u»‘‘ iw
'a •auil’vy.
cancel Hatter's voucher/explaining that he had committed fraud by not divulging that
he had an ownership interest in real estate and that his son paid his mortgage (a form of
income). Hatter appealed, entitling him to a formal hearing, and, around the same time,
he conveyed any interest in the Indiana property to his son with a quitclaim deed. ,
toot dbout whether the h'msji* authority d5 t r/‘ninat»*d »v-amn; him bpse»i on di^brjity
Because Bland received notification that Hatter had also contacted
the |Jfederal^
t
HI r
«
bV lit
| -r ■■
nrU -_V. I'
'*
u. i ■■ -n > .• «>
Department of Housing and Urban Development (HUD), Bland told Hatter that the
housing authority would wait to schedule the formal hearing until it was resolved. A
month later, however, HUD had not received a timely complaint from Hatter, so it told
»• « J •• 4 - 1 ‘
iy *'* — il . -1
»' .M''1. . 1 I* Y> ,> ’ A.V.
‘
I v< nwl.l'1
the housing authority it could proceed. Bland scheduled the hearing for October and
r * -* , . > • ■»
, .rr., y#
H
»l ’i
i .
T
>» IIUVU Ul '
’ V-IVl .,
* V*” •
notified Hatter by. regular and registered mail two weeks in advance. (Bland had.
previously told Hatter to expect notice in the mail.) But Hatter did not receive the notice
in time or attend the hearing because he was undergoing medical treatment in Texas;
the notice was at his home when he returned. (He maintains that he told Williams infr.
September, that he would be leaving for months.) The hearing proceeded anyway, and
the hearing officer affirmed the revocation, mailed the decision to Hatter/ and stopped
his subsidy as of November. The following month, the agency, received notice that r's
Hatter had filed the HUD complaint; that proceeding ended with a ('no cause'V,,
f-.•se *\,i *i>* tu^i ijutc c -1 •'t-1-

t

j*'

H pf-prm i n a tn rm

Ha^rt iipiit.. ?*** th it Willi,.
1 he: investigation m'v after he isked for
ar l. rot Hatter then filed this lawsuit/generally asserting claims of disability and racial
discrimination and retaliation under the Fair Housing Act and the Americans with-* nut
Disabilities Act, plus denial of due process/See 42 U.S.C.'§§ 1983, 3604,3617,12132. The
defendants moved for summary judgment, and the district court granted their motions.
The court ruled that the record did not support an inference that any defendant, the
discriminated or retaliated against Hatter.-As for his due-process claim, it continued/D
.Hatter,could not seek relief in federal court because he had state-law,remedies, m.
the record show*. Hatter's ere in
prompted an investigation, and after two
hearin
aPPea^ Hatter challenges the entry^of summary judgment, which^we review
de novo. Knudtson v. Cnty. offrenwealcau, 982 F.3d 519/525 (7th Cir. 2020). He primarily
V. .
« *» -. /1.
« i. ikb.
•'I
v i ’ wi »»:. n.wl - U
lvi-i ...
m ‘AM
argues that he committed no fraud because his answers were truthful, and it was legal
for him to take out a loan to help his son buy a house. He repeatedly, asserts that his .
2004 letter refutes his ownership of the Indiana property and that the agency fabricated
his 2015 income-verification paperwork. He also presents new arguments and evidence
about purported flaws in the investigation and property valuation; we cannot consider
♦ TV *• , v - t
irlen 1 lx ,. c. ? the j<V’nrv had \ •*« v^J'd vri *t hJ f »r ditci’nfg.i ig n' i
m

I

w ... «V4

K ■ V'KVI M J

v

... . Mil.

w. > •<

j

I1I..II ■

H.I

t

. % 1.V1 > I1

■ V i

J

.

^

»

■ V*

I J

m

- +■ S'At 11 »-*. 11 .|M»;<IIK.

*.

Ml'M. '*•

I

J ir 'M ■ i ‘'.Mil *»

'•» ■

yi

HAM ill.

‘ 11 »

W> I* *

.1

%*

•" I

17 i,

> t

ck

•r

e :?egsq

T“

fS0£\8£U0 :bslR

T^T

OR iJnamuooQ

ee^s-er -.©sco •

.

■

* ..

I- ags*!

.

.tO rf:“?) y£r. .OCR-bE.^-cwC? x^v>\SWv .« fjomhmB y& .Laouqs no arnil }?*:&• arfj icJ o^om
'baqolavaL on stMoaib ow vvfer/oi9n^HhtfeVrfJni-i£mhf»ai trays
fO£K
yiiiidoaib 10 t'alidv/) »j3«i aid to aaufnad yfotadua ai/i Mmovtj?
*7/35 Ji>rfi t;t9/.ftngr:r>
vtO rfi\} #«? ,£4< bb.d Ur\ .wmtVmH .n nomVmA y.'?. .gmfah a»orfi a«tabbs ton ob *rw op

.ac>cjs
Ian rf&m io tfuq^ib armjnyg c baarsi ia15oH 'iariiarf «/ . jbU:*03 ten\ aw .uToiaian';
(lilidsaib no baesd rrtiri teni£$s bstenjmmeib ythorf-tj • •gmei.-oii aril 7jriiorfw n.*ods ter>i
bio*/? *;:b tsrft ai vrflr.Ktoi /noidtwq orlT .noftfibonurcoyiu'• kf bnogstfr ts rnirf gnxynab \cj
mv3 ,iol bsjteo nfi aorJLLrorfTfnoDD'G 136X9 aril bavb/ia? vUnnlnava orf isrfi av/orfu
art? sfidi.-sonobiva aWfearrnba <’i,bt$! bioaant orii) leorpm 91 it it D&(ir»d WUrfiini srai>HfiW.
,ttp\aV;.:\l .'3 nlVjbib?. '..v.aso’tq avdofiiai/xM m naqo ylorniu cyuoupoS noil &bortfmovje ,(Ub
•nonneo.or! 02 ,iovr>l u'rrfifiK ni babas eeaaoiq aMT
SO dj\')
bE.H MO
. • .£Jj-?t£5 70 A«
.aa'dtipvn ytoariJ «5/.rl eorfaanpai eirf "bamab" yacioga arf* Jtrfj- worts
ni vrfdurfirrqm.ts.ui vbiadue aid fcajfova? narfj v^nagfc aril .shnaino:. rrficJ i J.u8 ■
5o tioiifiirfm sir] terft eirjp.as neta-sH .fioiJcbf>ramu336 ^nitaoupawyl ficitffiHat*;..\3nQjit aril harfw nohfi/f6i9i ni butlnuei bnslfl bijifi artmiiiiW iBfiifiQcintelqmo? grueua'l
iirfco Vhteib arfl rfi:// aaigc oW-.bnotirfion bluoD or! tr»rfi g/msadlisrcrxoi.1* bsrfwbaffoa
a\yiifet,i/iO bose.d norfirfitiai io ‘iinsvSlni aldcaosBoi & 1'urn^f ton aaob'biirjv'i odi i&rf3
. •f&fp'
rff\) £^M^f ,C8X b£.3
xoW«AoX\o vuj('-v
V:<; ^rv^Dfi b'jTXiJj/iq

■A

■ ■>

. <

vrf iyj'J.<iti.arfiat>G vino n*rfi&^ris^vni 73rf bajtrrfp. umtj'fiW h;.rf! j?o.\b'srfqrna ^ >«gH .
.avrforfi yierfairBtai >ioqq\ru tonriro anolb gfti/nii IjjcI-.nobrrfjofrmjooDC ne feavi-yjM f'nt •
ion ■■} wys
srfi bnA .(800£ SO rftV) ^ ^82 bZS ibr ,.0 .e«\
» yaltiv)W jV.
irbarj sVrf.xi i bslso.upa'i s'fiei'.iiW isrft sworfc uormbiv s OMit JoVinu nrft n^dw suobio/us
iio.<;|nrf£ dv 03f73tjiv3 2>i3&i isit&l-l .donilii ni ^nivrf ion ?.k /«•ierii qrf t no boaad Xioq9'.i
srfi frrfqnjo-rq— b«rfnrn>; s.37/ rfoirfw -ieaiip'.r noUf>boi.tnro33R srrf ierfi noiinoinoD ?drf
a;j.H
iurfi nodn-Cnoj 3rft *icrf uA .bi
yioiiuoovni si/>r.pi?!u arft 10 noting
aA rfnaadc ntsgn *xmo at -jonobi/3 arfi jnfijgoiq arfi mnit Itvoraai ai/: 01 baf ini
'*.
ovrf tirfb; bm> aonngciaavni ne bsiqmoi*j tioqoi rfboiu a ••arfnH .awf>rfa bioo*». orb
on ^arfliurf .aal.'iT m.r;T^oiq gniisioivurf aunirfaraar. rirf habno yunags o:'i
barf n: gniifisjf liiixnr.'i aid boluborba \on9goorfiierfi iarfod a\3rfGii si7oqq..:s aonab'-.u
tor: bib lS'tr.H bm> /'J-JH /nos! noiaairrnaq gniviouoi 73rfs gnhsarf
iaa nncfd rfnM
;»f > ;•*; /)ft Jurfi
rf;i -ri)nn gniai/orf ©Hi 1g anoyns ierb noitjafi< .*» uirf hoqqua yii.aqoiq

■

i

Vir 'miGi'Vs ..) v*cr»3rjnnv32ib tsKiialent javav/orf ,«>frrfno3 ot siissqnt; lorfcH
stilt*. ^n.;g,'trf::aib ioi bnuoia bifnv ori bnrf vsnaac adi 6«n;;v3t' ha*n*rfni on nt*> ovHorn

*

1 A
r

Case: 19-2453

Document: 50

Filed: 01/28/2021

Pages: 5

i
No. 19-2453

Page 5

from the voucher program. But the agency stopped his housing assistance for his
repeated failure to disclose that he had an interest in the Indiana property. See 24 C.F.R.
§ 982.551(b), (k). This is not the place to argue that the decision was erroneous. Though
he attempts to undermine the conclusion that he ever misrepresented having an interest
in a property, a pretextual reason is a false one, not an incorrect or unfair one.
See McCann v. Badger Mining Corp., 965 F.3d 578, 589 (7th Cir. 2020). And Hatter has no
evidence that anyone at the agency had a different motive than what he was told.
Last, Hatter argues that housing authority employees deprived him of due
process because he did not receive proper notice of the formal hearing. While the
district court rejected this argument because Hatter had state remedies available to him,
we affirm on a different ground: Hatter received due process. There is no evidence in
the record that the agency denied Hatter minimum constitutional safeguards before
ending his housing assistance. It mailed him proper notice of the hearings, provided a
written explanation of its decisions, and gave him the opportunity to present his case
twice. See 24 C.F.R. § 982.555; Goldberg v. Kelly, 397 U.S. 254, 267-70 (1970). That Hatter
did not receive the written notice of the appellate hearing cannot be attributed to the
agency. Again, Hatter has no evidence that Williams knew that he was living in Texas
but not forwarding mail there. And his expectation that the hearing would not be
scheduled until later does not call into question the adequacy of the notice. The
Constitution requires only that notice is "reasonably calculated/' not that it "succeed."
Ho v. Donovan, 569 F.3d 677, 680 (7th Cir. 2009) (citing cases). There is no dispute that
Bland mailed notice to his current, correct address well in advance of the hearing.
We have reviewed Hatter's other arguments, and none has merit.
AFFIRMED

